                                       EXPORT-IMPORT        BANK
                                          OF THE UNITED STATES




Mr. Osvaldo L. Gratac6s
Inspector General
Office of the Inspector General
Export-Import Bank of the United States
811 Vermont Avenue NW
Washington, DC 20571


Dear Inspector General Gratac6s,

Thank you for providing Ex-Im Bank Management with the Office ofthe Inspector General (OIG)'s
Semi-Annual Report to Congress covering the period from October 1S\ 2011 to March 31 S\ 2012. This
letter constitutes Management's response to the Report. Management supports the OIG's work in
prosecuting and preventing fraud against Ex-Im Bank. We are also grateful for your work on the
Financial Statement FY2011 audit conducted by Deloitte and Touche, the FISMA audit, and the IPERA
audit. These exercises were helpful in improving Bank processes and oversight.

We would like to focus on that section entitled "Management Challenges," as we have already responded
to the period's audits, evaluations, and inspections in prior correspondence. While we concur with some
of the OIG's observations, we disagree with a number of the Report's conclusions. Moreover, we would
like to draw your attention to projects currently underway at the Bank that address OIG concerns.

    1. Human Capital-
       We agree with your observation that Ex-Im Bank has achieved significant growth in
       authorizations and assets over the past five years. Ex-Im Bank's dedicated employees are to be
       commended for this laudable achievement. We disagree, however, that due diligence has suffered
       as a result of its asset growth or staffing constraints, and we see no evidence that Ex-Im Bank is at
       risk of higher default rates. In recent years, as authorization amounts and portfolio exposure have
       increased, Ex-1m has correspondingly strengthened its capabilities and staffing in transaction
       underwriting, credit and risk management, and portfolio management. Management does not
       believe that the statement that this increase in workload has been undertaken by the same level of
       staffmg is correct.

        Specifically, in the past three fiscal years, Ex-Im Management has put into place the following
        initiatives to increase capacity and manage growth:

            •   Increased transaction loan officer underwriters commensurate with growth.
            •   Strengthened capabilities in credit and risk management.
            •   Increased staffing in portfolio and asset management commensurate with increases in
                exposure.


                                                                                                          1

                           811   VERMONT AVENUE,   N.W   WASHINGTON,   n c. 20571
       •   Developed and delivered customized training courses to improve staff skill in credit
           analysis and risk management.


   Increase in loan officer underwriters. As authorization volumes have grown, Ex-Im has
   concurrently added loan officer underwriters, both as new headcount and by redeploying current
   loan officers into areas of greatest needed. These additions include:


       Transportation. 2 new loan officer underwriters, a staffing increase of 25%

       Structured and Project Finance. 3 new loan officers underwriters, a staffing increase of 27%

       Trade Credit Insurance. 3 new loan officer underwriters, a staffing increase of 17%

       Trade Finance. 9 loan officers redeployed, a staffing increase of 39%.

   In addition to these new headcount, five loan officers have rotated into different product areas to
   provide additional surge staffmg to meet demand.

   Strengthened capabilities in credit and risk management. In FY2010, Ex-Im restructured its
   Trade Finance and Credit Underwriting groups to strengthen underwriting and provide additional
   review of riskier and more complex transactions. Nine loan officer underwriters were redeployed
   to Trade Finance to work directly on transactions. With this reorganization, Ex-Im repositioned
   the Credit Policy team to create a group of seasoned underwriters deployed to focus on the most
   difficult transactions and to establish credit polices to ensure an effective and uniform credit
   culture across individual transactions. Further, the Credit Policy Committee conducts frequent
   reviews of "lessons learned" to assure that changes in underwriting practices are disseminated
   across divisions. In addition, a new loan officer was added to the Credit Review and Compliance
   group to perform audits of selected transactions and recommend any needed underwriting
   changes.

   Increases staffing in portfolio and asset Management. As the Bank's exposure grew,
   additional staff were added to the portfolio monitoring group. Five new loan officers were added,
   increasing FTE staffing by one-third.

   Training in credit analysis and risk Management. In addition to increasing staff, Bank
   Management focused on skills development of the loan officer cadre. Customized training
   courses were delivered to about 50 loan officers in financial accounting, credit analysis, and risk
   analysis.


2. IT Management-
   When the OIG produced last period's Semi-Annual Report, Management concurred with its
   findings on IT systems as a management challenge and cited our budgetary restraints on IT
   investments (Please see Management Response letter to OIG dated November 16th , 2011). Over
   the past six months, Ex-1m Bank has received the investment resources necessary to modernize
   its IT systems and has launched the Total Enterprise Modernization (TEM) initiative to execute
   this goal.

    TEM will focus on redesigning business processes and upgrading information technology
    systems. With the guidance of Management, the TEM team will prioritize, select, and implement
    projects to guide the Bank towards becoming a modem and flexible institution that is able to

                                                                                                         2
   adapt its IT systems and business processes as the environment around it changes. The Executive
   Working Group, chaired by the Chief Operating Officer, will make strategic and investment
   decisions and ensure that the TEM project remains aligned with the needs of the business units of
   the Bank and its Strategic Plan.

   The TEM project is already in its initial design phases. TEM's objective, as defined by Ex-1m
   Bank Management, is to develop an enterprise culture of high performance and customer focus
   and to re-engineer business operations to meet customer needs and expectations. Further, TEM
   will improve data management, analytics, and reporting.

   Since embarking on the TEM project, Ex-1m Bank has made a series of foundational decisions
   and begun several key projects. Specifically, Ex-Im Bank hired MITRE Corporation to perform a
   technical support review of Ex-1m Bank IT Capital Investment priorities, provide a thorough
   examination of Bank operations, and make recommendations for transformation. MITRE has
   finished its review and is fmalizing its report to Ex-Im Bank. Additionally, Ex-Im Bank hired an
   IT contractor to recommend a service-oriented architecture (SOA) and to purchase and install the
   components of the selected architecture. The components have already been purchased and
   installed. The contractor is now proceeding with a "Proof of Concept" project to replace Ex-Im
   Bank's working capital guarantee processing system and create an online application process for
   the working capital program using the new SOA. Two other "Proof of Concept" projects are in
   process. The first is to develop a "Smart Form" application process for online applications, and
   the second is to develop a new customer management system to enhance business processes and
   clean customer data using a recently purchased Master Data Management tool. Lastly, Ex-1m
   Bank has established and staffed a TEM project team; identified and prioritized high-value
   projects; and begun the process of hiring a consultant to assist with business process
   improvement.

3. Strategic and Performance Planning-
   The Report states that Ex-1m Bank has not issued an Annual Performance Plan (APP) and annual
   performance report. However, the Bank has, in fact, issued an APP and performance report as
   required by GPRA. Please find this document publicly available on the Ex-1m website at:
   http://www.exi111.gov/aboutireports/GPRA%20Narrative%20and%20Table.pdf.

4. Risk Management-
   Management agrees with the OIG suggestion that Ex-Im's loss reserve models would benefit
   from the use of qualitative risk factors in addition to quantitative factors. In February 2012, the
   Office of the Chief Financial Officer began an internal review of its loss reserve models and
   developed a methodology that includes qualitative risk factors. This methodology is now in
   testing and will go into effect after approval by the Office of Management and Budget.

    In addition, the Audit Committee of Ex-Im Bank has also undertaken an evaluation of the
    incorporation of qualitative factors into the Bank's reserve modeling. To this end, the Audit
    Committee has engaged KPMG to review the OCFO's work to revise our reserve methodology.
    We look forward to coordinating all of the ongoing work on this topic with the OIG's evaluation
    of Ex-Im Bank's loss reserve policies.

5. Customer Service-
   As part of Ex-Im's Annual Competitiveness Report to Congress, the Bank conducts an exporter,
   buyer, and lender survey. In this survey, respondents comment on many aspects of customer
   service, such as cycle time and the Bank's responsiveness to buyer and exporter needs.


                                                                                                         3
          Management agrees that this existing survey of customers would be enhanced by development of
          a more formal survey instrument.

          In 2010, recognizing the need for a more in-depth study of customer service, Ex-1m Bank created
          a survey to gauge the effectiveness of its website, its online processing systems, and general
          customer service. However, this survey was not implemented because the Bank learned of the
          OIG's similar customer service survey initiative. In order to avoid the redundancy of two
          simultaneous surVeys, Management felt it was best for the OIG to conduct its own survey to be
          followed by Bank surveys in the future, if necessary. Please also note that Ex-1m staff has been
          working collaboratively with the OIG on its customer survey efforts, providing information on
          exporters and feedback on survey design.

          The Bank also consistently monitors its customer service performance in accordance with its five-
          year Strategic Plan.! For instance, the Bank tracks its application turnaround time on a monthly
          basis to ensure that we are responding to our customers' needs in a timely manner. At present, the
          Bank processes 88% of applications within 30 days and 99% of our applications within 100
          days.2 On a weekly basis, senior Management reviews all applications that have been in the Bank
          for longer than 100 days to expedite the underwriting process.

          As part of our investment in human capital, the Bank is creating a new position for a Vice
          President of Customer Experience. This individual will implement the Bank's customer service
          strategy (including customer service surveys) and will be responsible for the Bank's customer
          service performance across business lines.

          Finally, the TEM initiative to modernize Ex-1m's IT systems will be closely integrated with our
          customer service strategy and our VP for Customer Experience. Optimizing customer service is
          central to TEM's goals.

      6. Credit Underwriting and Due Diligence Practices-
         The Report raises some concerns regarding Ex-1m's credit underwriting and due diligence
         practices. In particular, the OIG expresses concerns with the Individual Delegated Authority
         (IDA) system instituted by the Board of Directors in their July 2010 resolution.

           This section of the Report enumerates three policies that should be addressed, and then also adds
           a fourth suggestion that lenders be required to implement "know your customer" practices.

           Management partially agrees with the suggestions regarding policies, but in these cases
           Management has already implemented the suggested changes. A response to each of the
           suggested policy issues is set forth below, but first Management would like to address the
           Report's broader comments on IDA and credit underwriting and due diligence.

           Ex-1m Bank has had an Individual Delegated Authority system for decades, including for
           transactions under $10 million. In response to concerns about customer service and transaction
           processing times (as the Report previously noted), Management evaluated the concurrent
           functions of the IDA process with Credit Committee review for those transactions under $10
           million. Further, Management reviewed the bifurcation of underwriting and loan processing. The
           largest transactions in the Bank are underwritten and processed by the same loan officer, and
           these same efficiencies can be applied to transactions under $10 million as well. Based on these

1   http://www.Exlm.gov/pubs center/ExImBankStrategicPlan2010 15.pdf
2   Measures period from October 1st, 2011 to April 30th , 2012. Calculation based on internal ERS system metrics.

                                                                                                                     4
        reviews, Management determined that Credit Committee review for transactions under $10
        million was not necessary alongside the IDA structure. This determination did not mean,
        however, that underwriting was "decentralized." On the contrary, these changes were put in
        place so that the underwriting could be overseen by a manager - the Vice President of Trade
        Finance - who would be responsible for consistency. A frequent complaint under the prior
        system was inconsistency in the approach to underwriting.

        In addition, as added protection, the Transaction Risk Classification Committee, (the "TRC")
        provides a forum for cross-division discussion of pending transactions and ensures consIstent
        application of credit guidelines. To supplement the TRC and provide broader oversight and
        guidance on matters of risk and portfolio management, the Credit Policy Committee convenes
        staff from across the Bank to discuss credit policy and procedures. In addition, the Credit Policy
        division's work on the updated Credit Manual, which will provide a comprehensive guide to
        policies, will be completed in June 2012.

        In February 2012, at the request of the Executive Working Group, the Credit Policy division
        began a review of the overall IDA system to evaluate the extent to which Ex-1m was in
        compliance with the governance policies and controls created in the July 2010 Board resolution.
        The Credit Policy division concluded that the Bank is in compliance with the resolution and that
        Ex-1m's underwriting and due diligence continue to be effective under the IDA regime.

        We do not believe that IDA, or our underwriting and due diligence policies in general, have
        resulted in inconsistencies or deterioration in the quality of underwriting. In fact, since the Board
        instituted the IDA system in July 2010, the credit quality of the Bank's authorizations has
        improved from an average BCL of3.87 for authorizations in the first half of FY20 10 to an
        average BCL of3.l9 in the first half ofFY2012. 3 Moreover, in the first half ofFY2012, we have
        earned $548 million in offsetting collections and paid only $18 million in claims, a significant
        decrease in claims over previous years.

        Finally, Management has undertaken a forward-looking review to determine if the current IDA
        structure is meeting the Bank's needs. With this review, we will continue to refine IDA as
        necessary to ensure that we balance customer responsiveness with prudent underwriting standards
        in line with our Charter obligations.

        Regarding the specific policy suggestions made in the Report, we provide the following
        responses:

        a. Management disagrees that there should be a uniform·credit and underwriting standard for all
        Ex-1m Bank credit officers. Different programs within the Bank require different standards.
        Management does agree that, within each program, there should be uniform credit and
        underwriting standards.

        b. Management agrees that, when feasible, security interests should be required to mitigate risks.
        Most of Ex-Im Bank's programs are, in fact, asset-based programs, and over a year ago the Bank
        put in place a requirement for security interests in most medium-term transactions. Management
        also agrees that, subject to budget constraints, sporadic inspections and site visits would help to
        mitigate risk.



3 BCL (Budget Cost Level) measures the risk of an authorization on a scale from 11 to 1, with BCL 1 representing
the lowest level of risk. BCL 4 and lower correspond to an investment grade credit.

                                                                                                                   5
   c. Management agrees that financial statement reporting is a useful tool and the Bank requires
   such reporting in its medium-term program. Independently audited financial statements are also
   required on most transactions, but Management disagrees that these should be required in all
   transactions as the costs would interfere with the Bank's ability to and support small business
   transactions.

   Management also agrees that lenders and other participants should apply standard due diligence
   and "know your customer" practices to Ex-Im Bank transactions. The Bank publishes due
   diligence guidelines applicable to lenders on its website at http://www.exim.gov/pub/pdf/Due-
   Diligence-Guidelines.pdf. Lenders are subject to "know your customers" requirements pursuant
   to the Patriot Act and other similar applicable regulatory and statutory regimes. In addition, the
   Bank has internal due diligence procedures which apply to all transactions and which include
   including Character, Reputation, and Transactional Integrity (CRT!) standards applied to all
   major parties to a transaction.


7. Corporate Governance, Business Processes, and Internal Control Policies and Practices-

   Management agrees that it should review and continue to monitor the adequacy of its policies and
   practices as regards corporate governance, business processes, and internal controls to ensure that
   policies are clear and formalized.

   The comment regarding the Nigerian Bank Facility also appeared in the OIG's Semi-Annual
   Report to Congress for the period from April 1S\ 2011 to September 30th , 2011. Management
   responded to this comment in its response to that Report, dated November 16 th , 2011. The
   Nigerian Banking Facility no longer exists and was not renewed by the Bank in the fall of2011
   due to low utilization. Please refer to our response in our November 2011 letter.


   8. Renewable Energy Products and Clean Energy Export Opportunities-

   Management has already responded to the recommendations of the July 2010 GAO report on Ex-
   Im Bank's Environmentally Beneficial Exports. Management continues to refme its business in
   this area and would be pleased to present its strategy to the OIG when practicable.


   9. Small Business Participation-

   Management agrees with the ongoing importance of performance in this aspect of Ex-Im's
   business. The Small Business Group has invested considerable effort and resources to build its
   platform - encompassing changes to products, processes, and deployment of staff. Part of this
   effort includes a revised strategic plan that includes targeted performance metrics. These plans are
   too detailed to share in the context of this letter, but this team would be pleased to share its work
   in this regard with the OIG when practicable.


   10. Economic Impact Procedures-

    The Bank plans to initiate a comprehensive review of its economic impact procedures in June
    2012. This process will include a public meeting to discuss proposals and to hear concerns. In
    the past, similar reviews of the economic impact procedures have taken about six months to

                                                                                                        6
       complete. This review will incorporate the views of a cross section of Ex-Im Bank stakeholders,
       such as affected industry, organized labor, exporters, other USG agencies, Congressional
       interests, as well as the recommendations and suggestions for improvements to the economic
       impact procedures advocated by Ex-Im Bank's OIG and the GAO. Since the Bank last conducted
       a wholesale review of its economic impact procedures in 2001, the Bank has processed dozens of
       transactions that required detailed economic impact analysis and, staff has gained valuable
       insights into possible improvements to the economic impact procedures. The Bank will bring all
       of this perspective to bear in the review process.


       Thank you once again for the ~IG's efforts to improve Ex-Im Bank's policies and procedures and
       to ensure that Ex-1m funds are not subject to waste, fraud, or abuse. The Bank appreciates your
       hard work and your input. We look forward to continuing to work closely with the Office of the
       Inspector General.

                                               Sincerely,



                                               ;ttwP-
                                               Alice P. Albright, CF A
                                               COOandEVP
                                               Export-Import Bank of the United States



cc: Fred P. Hochberg, Chairman and President




                                                                                                     7
